<html>
<title> - AN UPDATE ON THE SPACE LAUNCH SYSTEM AND ORION: MONITORING THE DEVELOPMENT OF THE NATION'S DEEP SPACE EXPLORATION CAPABILITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                     AN UPDATE ON THE SPACE LAUNCH
                      SYSTEM AND ORION: MONITORING
                         THE DEVELOPMENT OF THE
                          NATION'S DEEP SPACE
                        EXPLORATION CAPABILITIES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                           Serial No. 113-98

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                               ___________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
93-331 PDF                    WASHINGTON : 2015                    
       
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0562756a45667076716d6069752b666a682b">[email&#160;protected]</a>  
      
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, TEXAS                 DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. MCCAUL, Texas             JOSEPH P. KENNEDY III, 
MO BROOKS, ALABAMA                       Massachusetts
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
JIM BRIDENSTINE, Oklahoma            FREDERICA WILSON, Florida
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           December 10, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    12

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    15

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written Statement............................................    17

                               Witnesses:

Mr. Bill Gerstenmaier, Associate Administrator for Human 
  Exploration and Operations Mission Directorate, NASA
    Oral Statement...............................................    19
    Written Statement............................................    22

Ms. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office
    Oral Statement...............................................    28
    Written Statement............................................    30

Discussion.......................................................    49

             Appendix I: Answers to Post-Hearing Questions

Mr. Bill Gerstenmaier, Associate Administrator for Human 
  Exploration and Operations Mission Directorate, NASA...........    70

Ms. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    95

            Appendix II: Additional Material for the Record


Prepared Statement Submitted by Representative Eddie Bernice 
  Johnson, Ranking Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   106


                         AN UPDATE ON THE SPACE
                          LAUNCH SYSTEM AND ORION:
                   MONITORING THE DEVELOPMENT OF THE
                          NATION'S DEEP SPACE
                        EXPLORATION CAPABILITIES

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Palazzo. The Subcommittee on Space will come to 
order.
    Good morning. Welcome to today's hearing titled ``An Update 
on the Space Launch System and Orion: Monitoring the 
Development of the nation's Deep Space Exploration 
Capabilities. In front of you are packets containing the 
written testimony, biography, and truth-in-testimony disclosure 
for today's witnesses.
    I recognize myself for five minutes for an opening 
statement.
    I would like to welcome everyone to our hearing and 
particularly our witnesses. Thank you for your appearance here 
today.
    Anyone who pays attention to the media at all is no doubt 
aware of the spectacular launch of the Orion crew vehicle last 
week. I want to congratulate Mr. Gerstenmaier and his entire 
team at NASA, as well as the teams at Lockheed Martin and 
United Launch Alliance for an outstanding test flight.
    While we will hear today about the preliminary results from 
this test, the scientists and engineers at NASA will continue 
to analyze the data for quite some time. I look forward to 
hearing more about the progress of this analysis in the future.
    The successful test launch of Orion demonstrates that we 
are on the right track for sending humans back to the Moon and 
Mars within our lifetimes. Across the nation, people were 
watching with the same hope and pride that all Americans had in 
the early days of our space program. In my Congressional 
District children were bussed to Stennis Space Center to watch 
a live feed of the launch. Events like this are what we need to 
inspire the next generation of astronauts and engineers, and 
SLS is a giant leap forward in making America the leader in 
space once again. The tremendous ongoing work at NASA and our 
industry partners is beginning to produce tangible results. The 
nation can be proud of what was accomplished last week. It was 
certainly a job well done.
    The purpose of our hearing today is to examine the 
challenges and opportunities facing the Space Launch System and 
Orion programs. It is no secret that this Committee is 
concerned that the support within NASA for the SLS and Orion is 
not matched by the Administration. While this lack of 
commitment is somewhat puzzling, it is not at all surprising. 
The President has made clear that he does not believe space 
exploration is a priority for the nation and has allowed 
political appointees within the Administration to manipulate 
the course of our human space flight program. These decisions 
should be made by the scientists, engineers, and program 
managers that have decades of experience in human space flight.
    As everyone here knows, this is not an easy field; we 
cannot ramp up capability or prepare for these missions 
overnight. Space exploration requires a dedication to advanced 
preparation and research, and this Committee and this Congress 
are dedicated to supporting that requirement.
    The Administration has consistently requested large 
reductions for these programs despite the insistence of 
Congress that they be priorities. Most recently, the 
President's budget for Fiscal Year 2015 included a request to 
reduce these programs by over $330 million compared to the 
Fiscal Year 2014 enacted appropriation. Additionally, in the 
2013, 2014, 2015 budget requests, the Administration asked for 
reductions of $175.1 million, $87 million, and $144 million 
respectively for the Orion program relative to the enacted 
appropriations.
    Had Congress agreed to the requests, Orion and the SLS 
would have incurred hundreds of millions of dollars in 
reductions and would likely face significant delays and mass 
layoffs. Thankfully, Congress listened to the program managers 
and industry partners to ensure these programs were 
appropriately funded.
    Congress has once again demonstrated support for the SLS 
and Orion by providing funding well above the President's 
budget request in the Omnibus for Fiscal Year 2015. While these 
priority programs may not enjoy support within the 
Administration, they certainly do from Congress. Let me be very 
clear, on my watch Congress will not agree to gutting the SLS 
program; not now and not any time in the foreseeable future.
    The human exploration program at NASA has been plagued with 
instability from constantly changing requirements, budgets, and 
missions. We cannot change our program of record every time 
there is a new president. This committee is consistent and 
unwavering in its commitment to human exploration, a tradition 
that I appreciate and am confident will continue into the 
future.
    While this hearing is certainly an opportunity for us to 
celebrate the great progress of the SLS and Orion programs, 
particularly last week's test flight, the Committee has ongoing 
concerns about the challenges facing these vital programs. In a 
letter to the NASA Administrator, Chairman Smith and I 
expressed our concerns for potential delays of Exploration 
Mission-1 that had been slated for 2017 and is now potentially 
delayed to as late as Fiscal Year 2018. The Administration's 
letter back to the Committee was strangely unresponsive and did 
not inspire a lot of confidence in NASA's ability to meet the 
original timelines laid out. Congress needs answers to these 
questions. At the very least, we need to know, what are the 
true funding needs and schedule expectations for the 
development of the SLS and Orion Programs, and is NASA on track 
to meet these expectations?
    In addition to consistently submitting insufficient funding 
requests, the Administration also appears to be limiting the 
usefulness of funding it does receive. For example, the 
Administration's treatment of termination liability prevents 
hundreds of millions of dollars from being used for meaningful 
development work. Also, the Committee has learned that the 
Administration has given direction to the SLS and Orion 
programs to plan spending rates consistent with the President's 
budget request instead of the higher continuing resolution 
level. Combined, these efforts are undermining the successful 
development of these national priority programs.
    In a recent report titled ``Space Launch System: Resources 
Need to be Matched to Requirements to Decrease Risk and Support 
Long Term Affordability,'' the Government Accountability Office 
highlighted technical and schedule risks that NASA had not 
previously brought to the attention of the Committee. 
Specifically, GAO states that ``According to the program's risk 
analysis, the agency's current funding plan for SLS may be $400 
million short of what the program needs to launch by 2017.'' It 
was surprising for the Committee to hear about this shortfall 
since the Administrator had previously testified that ``If we 
added $300 million to the SLS program, you wouldn't know it.''
    It is not unreasonable for Congress to expect the 
Administration to be straightforward about the risks and costs 
associated with national priority programs. As we look to 
continue pushing towards Mars, we must talk honestly and 
realistically about these programs and what we can accomplish 
with them. We want to be partners moving forward, not 
competitors; unfortunately, the Administration has simply not 
allowed for that cooperation.
    The test last week of Orion was an important milestone in 
the future of America's space program. It was a fully 
commercial mission licensed by the Federal Aviation 
Administration and conducted by the private sector. In the 
future, Orion and SLS will serve as the tip of the spear for 
our nation's space exploration program.
    Recently, some have argued that the government shouldn't be 
involved in space exploration at all and suggest that the 
private sector alone is capable of leading us into the cosmos. 
I certainly hope that this will someday be possible, but right 
now, space exploration requires government support. This is a 
worthwhile investment for the taxpayer. It inspires the next 
generation of explorers to pursue science, technology, 
engineering, and math; advances U.S. soft power and 
international relations; reinforces our aerospace industrial 
base; increases economic competitiveness; and advances our 
national security interests. Orion and SLS, the vanguard of our 
nation's space program, are key to advancing these interests.
    I look forward to hearing from Mr. Gerstenmaier and Ms. 
Chaplain today about the challenges and opportunities facing 
these important programs.
    [The prepared statement of Mr. Palazzo follows:]
              Prepared Statement of Subcommittee on Space
                       Chairman Steven M. Palazzo

    Good morning, I would like to welcome everyone to our hearing and 
particularly our witnesses. Thank you for your appearance here today.
    Anyone who pays attention to the media at all is no doubt aware of 
the spectacular launch of the Orion crew vehicle last week. I want to 
congratulate Mr. Gerstenmaier and his entire team at NASA as well as 
the teams at Lockheed Martin and United Launch Alliance for an 
outstanding test flight.
    While we will hear today about the preliminary results from this 
test, the scientists and engineers at NASA will continue to analyze the 
data for quite some time. I look forward to hearing more about the 
progress of this analysis in the future.
    The successful test launch of Orion demonstrates that we are on the 
right track for sending humans back to the Moon and Mars, within our 
lifetimes. Across the nation people were watching with the same hope 
and pride that all Americans had in the early days of our space 
program. In my congressional district children were bussed to Stennis 
Space Center to watch a live feed of the launch. Events like this are 
what we need to inspire the next generation of astronauts and 
engineers; and SLS is a giant leap forward in making America the leader 
in space once again. The tremendous ongoing work at NASA and our 
industry partners is beginning to produce tangible results. The nation 
can be proud of what was accomplished last week. It was certainly a job 
well done.
    The purpose of our hearing today is to examine the challenges and 
opportunities facing the Space Launch System and Orion programs. It is 
no secret that this Committee is concerned that the support within NASA 
for the SLS and Orion is not matched by the Administration. While this 
lack of commitment is somewhat puzzling, it is not at all surprising. 
The President has made clear that he does not believe space exploration 
is a priority for the nation and has allowed political appointees 
within the administration to manipulate the course of our human space 
flight program. These decisions should be made by the scientists, 
engineers, and program managers that have decades of experience in 
human space flight. As everyone here knows, this is not an easy field, 
we cannot ramp up capability or prepare for these missions overnight. 
Space exploration requires a dedication to advance preparation and 
research, and this committee and this congress are dedicated to 
supporting that requirement.
    The Administration has consistently requested large reductions for 
these programs despite the insistence of Congress that they be 
priorities. Most recently, the President's budget for Fiscal Year 2015 
included a request to reduce these programs by over $330 million 
compared to the Fiscal Year 2014 enacted appropriation. Additionally, 
in the 2013, 2014, 2015 budget requests, the Administration asked for 
reductions of $175.1 million, $87 million, and $144.2 million 
respectively for the Orion program relative to the enacted 
appropriations.
    Had Congress agreed to the requests, Orion and the SLS would have 
incurred hundreds of millions of dollars in reductions and would likely 
face significant delays and mass layoffs. Thankfully, Congress listened 
to the program managers and industry partners to ensure these programs 
were appropriately funded.
    Congress has once again demonstrated support for the SLS and Orion 
by providing funding well above the president's budget request in the 
Omnibus for fiscal year 2015. While these priority programs may not 
enjoy support within the Administration, they certainly do from 
Congress.
    Let me be very clear, on my watch Congress will not agree to 
gutting the SLS program; not now and not anytime in the foreseeable 
future.
    The human exploration program at NASA has been plagued with 
instability from constantly changing requirements, budgets, and 
missions. We cannot change our program of record every time there is a 
new president. This committee is consistent and unwavering in its 
commitment to human exploration, a tradition that I appreciate and am 
confident will continue into the future.
    While this hearing is certainly an opportunity for us to celebrate 
the great progress of the SLS and Orion programs, particularly last 
week's test flight, the Committee has ongoing concerns about the 
challenges facing these vital programs. In a letter to the NASA 
Administrator, Chairman Smith and I expressed our concerns for 
potential delays of Exploration Mission-1 that had been slated for 2017 
and is now potentially delayed to as late as fiscal year 2018. The 
administration's letter back to the Committee was strangely 
unresponsive and did not inspire a lot of confidence in NASA's ability 
to meet the original timelines laid out. Congress needs answers to 
these questions. At the very least, we need to know, what are the true 
funding needs and schedule expectations for the development of the SLS 
and Orion Programs and is NASA on track to meet these expectations?
    In addition to consistently submitting insufficient funding 
requests, the Administration also appears to be limiting the usefulness 
of funding it does receive. For example, the Administration's treatment 
of termination liability prevents hundreds of millions of dollars from 
being used for meaningful development work. Similarly, the committee 
has learned that the Administration has given direction to the SLS and 
Orion programs to plan spending rates consistent with the President's 
Budget Request instead of the higher Continuing Resolution level. 
Combined, these efforts are undermining the successful development of 
these national priority programs.
    In a recent report titled Space Launch System-Resources Need to be 
Matched to Requirements to Decrease Risk and Support Long Term 
Affordability, the Government Accountability Office highlighted 
technical and schedule risks that NASA had not previously brought to 
the attention of the Committee. Specifically, GAO states that quote 
``According to the program's risk analysis . . . the agency's current 
funding plan for SLS may be $400 million short of what the program 
needs to launch by 2017.'' It was surprising for the Committee to hear 
about this shortfall since the Administrator had previously 
testifiedthat quote ``If we added $300 million to the SLS program, you 
wouldn't know it.''
    It is not unreasonable for Congress to expect the Administration to 
be straight forward about the risks and costs associated with national 
priority programs. As we look to continue pushing towards Mars, we must 
talk honestly and realistically about these programs and what we can 
accomplish with them. We want to be partners moving forward, not 
competitors; unfortunately the Administration has simply not allowed 
for that cooperation. The test last week of Orion was an important 
milestone in the future of America's space program. It was a fully 
commercial mission licensed by the Federal Aviation Administration and 
conducted by the private sector. In the future, Orion and SLS will 
serve as the tip of the spear for our nation's space exploration 
program.
    Recently, some have argued that the government shouldn't be 
involved in space exploration at all and suggest that the private 
sector alone is capable of leading us into the cosmos. I certainly hope 
that this will someday be possible, but right now, space exploration 
requires government support.
    This is a worthwhile investment for the taxpayer. It inspires the 
next generation of explorers to pursue science, technology, 
engineering, and math; advances U.S. soft power and international 
relations; reinforces our aerospace industrial base; increases economic 
competitiveness; and advances our national security interests. Orion 
and SLS--the vanguard of our nation's space program--are key to 
advancing these interests. I look forward to hearing from Mr. 
Gerstenmaier and Ms. Chaplain today about the challenges and 
opportunities facing these important programs.

    Chairman Palazzo. I now recognize the Ranking Member from 
Maryland, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and good 
morning and welcome to our witnesses.
    I want to join Chairman Palazzo in congratulating NASA, 
Lockheed, United Launch Alliance, and the entire government and 
contractor team on successfully conducting the Exploration 
Flight Test, EFT-1, of the Orion capsule last week. I think it 
was truly exciting and I know that around the country and 
around the world there were many of us looking on television 
for the first time in a long time at a U.S. space program that 
really is very forward-looking. The flight subjected Orion and 
its systems to the rigors of outer space beyond low Earth orbit 
to test key systems, verify the Orion design, reduce technical 
risks, and test recoverability operations.
    Mr. Chairman, I believe that this test flight shows 
Americans that tangible progress is in fact being made on 
returning humans to exploration beyond our Earth's neighborhood 
and a goal that this Committee and the Congress as a whole have 
embraced through multiple NASA Authorization Acts, despite some 
of the challenges that the Chairman laid out.
    I would also note that I think we were in this hearing room 
just three years ago wondering whether Orion was really going 
to be possible or not and I think that we have addressed that 
question in what is a remarkably short period of time. And so 
while I look forward to looking at the challenges and taking on 
some of those challenges, I don't want us to lose sight of the 
fact that we have great capacity and that the American people 
can get greatly excited by that and I think then lead those of 
us who are the policymakers to do the right thing when it comes 
to robustly funding our exploration program.
    The development of the Space Launch System, SLS, and the 
Orion crew vehicle are necessary next steps in reaching our 
goals for human space exploration, including the long-term goal 
of sending humans to the surface of Mars, as stated in our 
bipartisan House-passed NASA Authorization Act of 2014. And so 
I also thank you, Mr. Chairman, for holding this hearing so we 
can obtain an update on the status of the SLS and Orion 
programs.
    And it was indeed just those three years ago that we sat in 
this room and we were pressing NASA for a decision on a final 
design of the SLS rocket. There was great debate between the 
Administration and this Committee and the Congress, and I think 
today we are going to hear of the program's approval to enter 
into the full-scale development, as some of us had envisioned. 
This is indeed a significant accomplishment, even in the midst 
of major challenges, especially those related to constrained 
budgets. Very often Congress has been supportive of SLS/Orion 
and has appropriated funding above the President's request, as 
the Chairman has indicated.
    I don't know that I necessarily share the Chairman's view 
about where all the faults lie. However, the programs have been 
challenged by the flat funding levels provided for SLS and 
Orion over the past years, a situation that departs 
significantly from the typical funding growth profiles of major 
development programs, and that is why we have recognized the 
critical need to authorize a robust top-line funding level for 
NASA in the 2013 Democratic NASA authorization bill that 
included healthy increases for the exploration program.
    The National Academies Committee in fact recently released 
its report on human space exploration and also recognized that 
sending humans to the surface of Mars would include and require 
sustained increases. They said, ``Increasing NASA's budget to 
allow increasing the human spaceflight budget by five percent 
per year would enable pathways with potentially viable mission 
rates greatly reducing technical, cost, and schedule risk.''
    And so, Mr. Chairman, we can work together to overcome 
these challenges. And as we work over this next Congress to 
reauthorize NASA, I look forward to working with you to ensure 
that this Committee authorizes the appropriations that the SLS 
and Orion programs require to achieve the expeditious 
development and testing of these vehicles for their use at the 
earliest possible date and that we obtain a human exploration 
roadmap to focus the SLS and Orion systems on long-term mission 
goals. And because when I see the excitement of the EFT-1 test 
flight, as demonstrated by the flight's coverage as a leading 
media story--I think in fact it did lead the broadcast news--I 
am reminded that the SLS and Orion programs really do belong to 
the American public and that they will in fact embrace them. We 
need to honor this thirst for exploration.
    And finally, though the 113th Congress is rapidly drawing 
to a close, I encourage our colleagues in the Senate to seek 
quick passage of the House-passed NASA Authorization Act of 
2014 so that NASA and its industry contractors, all of them, 
have the direction and stability needed to plan for continued 
progress.
    And then finally, I will just reiterate what I have said 
many times before and that is we cannot have one set of goals 
for NASA and for our human exploration programs and then not 
match those goals with the resources that are required to 
commit to the work on a timely basis. It is unfair to the 
agency, it is unfair to contractors, and it is a false 
expectation for the public.
    And with that I yield back and I look forward to hearing 
the testimony today.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                Ranking Minority Member Donna F. Edwards

    Good morning and welcome to our witnesses. First, I want to join 
Chairman Palazzo in congratulating NASA, Lockheed Martin, United Launch 
Alliance, and the entire government and contractor team on successfully 
conducting the Exploration Flight Test--EFT-1--of the Orion capsule 
last week.
    The flight subjected Orion and its systems to the rigors of outer 
space beyond low Earth orbit to test key systems, verify the Orion 
design, reduce technical risks, and test recoverability operations. Mr. 
Chairman, this test flight shows Americans that tangible progress is 
being made on returning humans to exploration beyond our Earth's 
neighborhood, a goal that this Committee and the Congress as a whole 
have embraced through multiple NASA Authorization Acts.
    The development of the Space Launch System-SLS-and the Orion crew 
vehicle are necessary next steps in reaching our goals for human space 
exploration, including the long-term goal of sending humans to the 
surface of Mars as stated in our bipartisan House-passed NASA 
Authorization Act of 2014. So I thank you, Mr. Chairman, for holding 
this hearing to obtain an update on the status of the SLS and Orion 
programs.
    It was only three years ago that we sat in this room pressing NASA 
for a decision on a final design for the SLS rocket, and today we'll 
hear of the program's approval to enter into full scale development. 
That's a significant accomplishment, even in the midst of major 
challenges, especially those related to constrained budgets.
    Congress has been supportive of SLS and Orion and has appropriated 
funding above the President's requests. However, the programs have been 
challenged by the flat funding levels provided for SLS and Orion over 
the past years, a situation that departs significantly from the typical 
funding growth profiles of major development programs.
    That's why we recognized the critical need to authorize a robust 
top-line funding level for NASA in the 2013 Democratic NASA 
Authorization bill that included healthy increases for the exploration 
program. The National Academies committee that recently released its 
report on human space exploration also recognized that sending humans 
to the surface of Mars would require sustained increases. They said, 
``Increasing NASA's budget to allow increasing the human spaceflight 
budget by five percent per year would enable pathways with potentially 
viable mission rates, greatly reducing technical, cost, and schedule 
risk.''
    Mr. Chairman, we can work together to overcome these challenges. As 
we work to reauthorize NASA during the next Congress, I look forward to 
working with you to ensure that this Committee authorizes the 
appropriations that the SLS and Orion programs require to achieve the 
expeditious development and testing of these vehicles for their use at 
the earliest possible date, and that we obtain a human exploration 
roadmap to focus the SLS and Orion systems on long-term mission goals.
    Because, when I see the excitement of the EFT-1 test flight as 
demonstrated by the flight's coverage as a leading media story, I'm 
reminded that the SLS and Orion programs belong to the American public. 
We need to honor their thirst for exploration.
    And, finally, though the 113th Congress is rapidly drawing to a 
close, I encourage our colleagues in the Senate to seek quick passage 
of the House-passed 2014 NASA Authorization Act so that NASA and its 
industry contractors have the direction and stability needed to plan 
for continued progress.
    Thank you and I yield back.

    Chairman Palazzo. Thank you, Ms. Edwards.
    I now recognize the Chairman of the full Committee, 
Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    And first, I want to congratulate Bill Gerstenmaier and 
those at NASA and also at Lockheed Martin, and United Launch 
Alliance, who I see represented in the room today, on a 
spectacular flight test last week of the Orion crew vehicle. I 
know a lot of hard work went into making that test flight 
successful.
    At a fundamental level, space exploration--the mission of 
NASA--is about inspiration. This inspiration fuels our desire 
to push the boundaries of what is possible and to reach beyond 
our own pale blue dot. The successful Orion launch last week is 
one step in a long journey.
    The purpose of today's hearing is simple: We wish to send a 
loud and clear message that space exploration is NASA's number 
one priority, and last week's test flight demonstrated many 
firsts. We are also here to ensure the next steps in this long 
journey are on track and will be just as successful.
    There is bipartisan support within Congress that NASA stay 
on track with the Orion crew vehicle and Space Launch System, 
including the omnibus appropriations bill that we plan to vote 
on tomorrow. The Orion and SLS are essential elements for 
astronauts to eventually travel beyond low Earth orbit.
    The omnibus appropriations bill made public last night is 
the latest example of Congressional support for these programs. 
Funded well above the President's budget request, the SLS and 
Orion are receiving the resources they need to ensure their 
success.
    Fortune favors the bold. Last week's test flight was 
necessary to answer the naysayers and critics who claim that 
America's best days on the frontier of space are behind us. 
Last week's mission answered those critics. The Apollo program 
demonstrated that we could reach the moon. And Orion and SLS 
will ensure that America continues a sustained series of 
missions as a space-faring nation for decades to come. The 
technologies that are developed for these programs exemplify 
our greatest breakthroughs and demonstrate American ingenuity. 
We must continue to push forward.
    Great nations do great things. Everyone in today's hearing 
wants to ensure that the first flag flying on the surface of 
Mars is planted by an American astronaut. And they will have 
arrived there onboard an Orion crew vehicle, propelled by the 
Space Launch System. Let's work together to make that happen.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Smith follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                          Chairman Lamar Smith

    First I want to congratulate Bill Gerstenmaier and those at NASA, 
Lockheed Martin, and United Launch Alliance on a spectacular flight 
test last week of the Orion crew vehicle. I know a lot of hard work 
went into making that test flight happen.
    At a fundamental level, space exploration--the mission of NASA--is 
about inspiration. This inspiration fuels our desire to push the 
boundaries of what is possible and to reach beyond our own pale blue 
dot. The successful Orion launch last week is one step in a long 
journey.
    The purpose of today's hearing is simple: We wish to send a loud 
and clear message that space exploration is NASA's number one priority, 
and last week's test flight demonstrated many firsts. We are also here 
to ensure the next steps in this long journey are on track and will be 
just as successful.
    There is bipartisan support within Congress that NASA stay on track 
with the Orion crew vehicle and Space Launch System, including the 
omnibus appropriations bill that we plan to vote on tomorrow. The Orion 
and SLS are essential elements for astronauts to eventually travel 
beyond low Earth orbit.
    The omnibus appropriations bill made public last night is the 
latest example of Congressional support for these programs. Funded well 
above the President's Budget Request, the SLS and Orion are receiving 
the resources they need to ensure their success.
    Fortune favors the bold. Last week's test flight was necessary to 
answer the naysayers and critics who claim that America's best days on 
the frontier of space are behind us. Last week's mission answered those 
critics.
    The Apollo program demonstrated that we could reach the moon. And 
Orion and SLS will ensure that America continues a sustained series of 
missions as a spacefaring nation for decades to come. The technologies 
that are developed for these programs exemplify our greatest 
breakthroughs and demonstrate American ingenuity. We must continue to 
push forward.
    Great nations do great things. Everyone in today's hearing wants to 
ensure that the first flag flying on the surface of Mars is planted by 
an American astronaut.
    And they will have arrived there onboard an Orion crew vehicle, 
propelled by the Space Launch System.
    Let's work together to make that happen.

    Chairman Palazzo. Thank you, Mr. Chairman.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Before I introduce our witnesses, I would be remiss if I 
did not point out that we are missing one this morning, NASA 
Chief Financial Officer David Radzanowski. The CFO or his 
designee was invited to participate in today's hearing to 
answer questions regarding NASA's budget development and 
guidance. Unfortunately, despite numerous invitations and 
attempts to secure his attendance, the Administration refused 
to make him available.
    Mr. Radzanowski holds a Senate-confirmed position at NASA 
and is obliged to testify before the agency's oversight 
committees. We are aware of the many demands on his schedule, 
and for that reason the Committee was willing to allow any 
other employee from the CFO's office to appear. Unfortunately, 
NASA prohibited any other CFO representative from appearing 
today. This is unfortunate because Mr. Gerstenmaier may not be 
the appropriate person at NASA to explain many of the policies 
and practices being advanced by the CFO's office. I look 
forward to Mr. Radzanowski's appearance before the Committee in 
the near future to answer our questions.
    At this time I would like to introduce our witnesses. Our 
first witness today is Mr. Bill Gerstenmaier. Mr. Gerstenmaier 
started his work with NASA in 1977 as a researcher on 
aeronautics. Today, he is the Associate Administrator for the 
Human Exploration and Operations Mission Directorate at NASA 
headquarters here in Washington, D.C. Mr. Gerstenmaier has 
received many awards for his work on space exploration, 
including the distinguished Executive Presidential Rank Award, 
the National Space Club von Braun Award, the Space 
Transportation Leadership Award, and several NASA awards. He 
received a bachelor of science in aeronautical engineering from 
Purdue University and a master of science degree in mechanical 
engineering from the University of Toledo.
    Our second witness, Ms. Cristina Chaplain, has been a U.S. 
Government Accountability Office employee for 23 years and 
currently serves as Director of Acquisition and Sourcing 
Management at GAO. In this capacity she is responsible for GAO 
assessments of military space acquisitions and NASA. She has 
led reviews of the Space Launch System, the International Space 
Station, and the James Webb Space Telescope, among others. 
Prior to her current position, Ms. Chaplain worked with GAO's 
Financial Management Information Technology Teams. She received 
her bachelor's in international relations from Boston 
University and a master's degree in journalism from Columbia 
University.
    Thanks again to our witnesses for being here today.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which members of the committee will 
have five minutes each to ask questions.
    I now recognize Mr. Gerstenmaier for five minutes to 
present his testimony.

              TESTIMONY OF MR. BILL GERSTENMAIER,

         ASSOCIATE ADMINISTRATOR FOR HUMAN EXPLORATION

            AND OPERATIONS MISSION DIRECTORATE, NASA

    Mr. Gerstenmaier. Thank you very much for having me here. I 
would like to again thank you on behalf of the entire team that 
works in the exploration program and I would like to start off 
my testimony with some videos and pictures that we provided 
earlier. These videos and images capture the work that has been 
accomplished in the exploration program. And I will narrate 
some of the video as it is shown. So if we could start the 
video, please.
    [Video shown.]
    Mr. Gerstenmaier. Again, the program is made up of three 
major components, ground systems operations down in Florida, 
which is preparing a launch site. These are the images that you 
are seeing here on the screen. Again, the purpose of this video 
is to show how much work is actually being accomplished, kind 
of behind the scenes.
    You can see the launch of the EFT-1 but you don't often get 
a chance to see all the work that is occurring at the various 
field centers and the various areas that are making these 
things happen.
    This is the Delta IV. There are some Delta IV images 
showing up down at the Kennedy Space Center. This is the 
fabrication and manufacturing of the Orion capsule that was 
launched on EFT test flight. Again, you get to see the 
technicians, the folks at the various centers working to make 
all this activity happen. It is not only in Florida, but it is 
also in Houston, where the control center team got to monitor 
the capsule, actually send some commands to the capsule. There 
was a team in Florida that also monitored the launch, so they 
got to participate in that activity and participate in the 
Orion capsule activity.
    Again, you can see the capsule coming together. Some of the 
hardware came from the Marshall Space Flight Center that was 
actually manufactured. The interface between the Delta IV 
rocket, and the Orion capsule came from the Marshall Space 
Flight Center. So again, I would say this is an entire NASA 
team coming together to make this happen.
    This is some work at the--again in Florida preparing for 
the capsule, and also down at MAF, at the Michoud Assembly 
Facility, where the SLS will be put together. I think you were 
there for the Vertical Assembly Weld Center that got put 
together that will manufacture the large external tanks. That 
activity is occurring. There are several sections all ready to 
be test-welded next January, this--in about a month; that has 
moved forward. Also, the test was--a substantial amount of test 
occurred before the test to make sure the parachute systems 
would work.
    We are preparing for the future exploration activities to 
look at the Asteroid Redirect Mission, and now you can see some 
of the work of actually, you know, transporting the capsule out 
to the launch pad to be integrated eventually with the Delta IV 
rocket.
    So again, I think the important message and takeaway from 
all these images is there is a tremendous amount of work going 
on. It is being accomplished pretty much on schedule. There are 
challenges to this work; it is not easy work. The teams are 
very dedicated. They are working very hard to make this--things 
occur and I think the results of the test flight show evidence 
that we are making significant and substantial progress as we 
move forward.
    [Video shown.]
    The next video that is getting queued up now is the actual 
video from the test flight. Many of you got to either see it in 
person or you got to see it on television. Again, I will 
describe some of the activities that occurred there. And again, 
the point here is that this test flight didn't come about just 
as a happenstance. There was lots of preparation before. We did 
many drop tests to the parachute systems; we did many recovery 
activities. We have done the abort system testing down at White 
Sands earlier again to verify and make sure that when we took 
this test we were ready to go do this test.
    So we didn't have all the questions answered. There was 
still significant risk with this test. There were still things 
that we could not test in any other environment other than a 
test flight, but this test flight confirmed that those other 
pieces, at least at first look, fit well and we understand the 
data and things look very good from an overall standpoint.
    Again, a lot of folks got to witness this. This was 
exciting to see people show up in Florida to be there. As you 
talked about in some of your opening remarks, the encouragement 
to the science, technology, engineering, and math students is 
really strong. To interact with many of the students down in 
Florida was really exciting for me to see their enthusiasm to 
move forward.
    This is the actual launch activity. That umbilical up at 
the top was unique to Orion. That was added by United Launch 
Alliance just specifically for this flight. That umbilical did 
not exist before this flight on the Delta IV launch. Again, the 
launch went extremely well. The vehicle gave us a great ride to 
space, ejected the capsule exactly where it needed to be. The 
upper stage did all of its activities to accelerate the vehicle 
to the right entry conditions. All of that worked extremely 
well and went really, really flawlessly.
    In terms of kind of first results from the test, nothing 
major was really learned. One of the video processing units had 
to be recycled, most likely caused by a radiation event, so we 
got to understand the radiation environment that the capsule 
will fly through. The heat shield looks in very good shape. As 
we returned, we removed some plugs from the heat shield out in 
California yesterday. The capsule is about ready to get on the 
truck to head towards Florida for a more detailed evaluation 
and all the data has come off the capsule.
    The images at apogee are pretty impressive when you look at 
the small Earth and you see the horizon. I think what was more 
important was that when you see it through a window where 
someday a crew will be, it makes that tie between a human 
spaceflight and the robotic spaceflight even stronger.
    This is the capsule again successfully floating in the 
water that--we expected to see five airbags deployed. In this 
situation we see two. There is something that didn't work in 
that system. We know the pyros fired, we know the pressure came 
out of the system, and we will understand what occurred.
    But again, overall, just a tremendous testimony to the work 
that the program has put together and I look forward to your 
questions as we move forward in this activity. So thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Palazzo. Thank you.
    I now recognize Ms. Chaplain for five minutes to present 
her testimony.

         TESTIMONY OF MS. CRISTINA CHAPLAIN, DIRECTOR,

              ACQUISITION AND SOURCING MANAGEMENT,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Palazzo, Ranking Member Edwards, 
Chairman Smith, and the Members of the Subcommittee, before I 
begin I would like to congratulate NASA on the successful test. 
It indeed does help demonstrate the design and technologies for 
the Orion and it is an important event.
    As you know, we have recently reviewed preliminary cost 
estimates for the systems being discussed today. We performed 
an in-depth review of the Space Launch System and we have been 
covering the Orion program through our annual assessment of 
NASA's major programs. In conducting this work, at the time we 
reviewed SLS, the program was approaching a critical milestone 
known as KDP-C where it makes formal commitments to the 
Congress in the form of costs and schedule baselines. This gate 
represents the point at which a program begins full-scale 
efforts to fabricate the space system and the point at which 
technical and/or funding problems can have widespread effects. 
We found that SLS was generally doing a good job at maturing 
design, keeping requirements stable, and putting a high 
priority on quality. The program is also acting to manage 
costs. However, it did take longer than recommended to 
definitize contracts, which can create conditions for cost 
growth.
    The program still faced inherent technical design and 
engineering risks, as all space programs do, but it was 
actively managing them in a transparent fashion. However, the 
program still faced a resource gap in that the agency's funding 
plan for SLS was insufficient to match requirements to 
resources for the December 2017 flight test at the high 
confidence level. The agency's options were largely limited to 
increasing program funding, delaying the schedule, or accepting 
a reduced confidence level for the initial flight test.
    The SLS program calculated the risk associated with 
insufficient funding through 2017 as 90 percent likely to 
occur. Further, it indicated the insufficient budget could push 
the December 2017 launch date out six months and add some 400 
million to the overall cost of development. After our report 
was issued when NASA established formal baselines for SLS, NASA 
committed to a launch readiness date of 2018 so that it could 
have more confidence in meeting this date. In our opinion, this 
was a good step as NASA still has low confidence, 30 percent, 
that it can meet the earlier date.
    Going forward, we have short- and long-term concerns about 
NASA's human space exploration programs. In the short-term, the 
programs are entering the most risky phases of development. 
There are still technical hurdles to overcome, particularly 
with the Orion spacecraft, which is addressing challenges with 
the parachute system and the heat shield, among others. There 
is also still considerable development and testing ahead for 
Orion in terms of the human support systems.
    Meanwhile, SLS is continuing to pursue the earlier launch 
date of December 2017. While NASA's urgency is understandable, 
the schedule for achieving the earlier date mostly with respect 
to the core stage is very aggressive. There is little room to 
address problems. Moreover, it does not appear that Orion and 
the ground system can achieve the earlier date.
    In the long-term we have concerns about the cost estimating 
for human space exploration programs. NASA has only produced 
estimates for SLS in the ground system through the first flight 
test and for Orion through the second flight test. There would 
still be significant development ahead for SLS after the first 
flight and significant operations and sustainment costs for all 
three programs.
    Moreover, there is still uncertainty about missions that 
will be undertaken after the second test. Without knowing the 
missions formally, NASA is limited in its ability to plan for 
the future and is at risk for making choices today that will 
not make sense later. Affordability for the long-haul is a real 
issue and one that this Subcommittee has already had hearings 
on, but to garner the long-term commitment from the Congress 
and taxpayers that is needed to make this program a success, we 
need transparent and realistic estimates about the resources 
that will be needed to achieve the Nation's goals for human 
space exploration.
    Thank you. This concludes my statement. I am happy to 
answer any questions you have.
    [The prepared statement of Ms. Chaplain follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. I thank the witnesses for their testimony 
and reminding the Members that Committee rules limit 
questioning to five minutes, the Chair will at this point open 
the round of questions.
    The Chair recognizes himself for five minutes.
    Mr. Gerstenmaier, the written testimony provided by GAO and 
Ms. Chaplain states that GAO found that NASA's proposed funding 
levels had affected the SLS program's ability to match 
requirements to resources since its inception. GAO also 
reported that the SLS program is tracking a $400 million 
shortfall in funding as its most significant risk. NASA 
officials have testified multiple times before this committee 
that the President's budget request was sufficient to keep the 
SLS and Orion on budget and on schedule.
    I realize this is a tough question for you to answer 
because you have to defend the President's budget request, but 
Congress is ultimately responsible for funding this program and 
ensuring taxpayer dollars are efficiently spent. But given that 
NASA has now delayed the initial launch of SLS due to funding 
pressure, what funding level would keep the 2017 date on track?
    Mr. Gerstenmaier. Again, I would say that the recent review 
we did, the programmatic review that Cristina talked about, we 
committed to a joint confidence level of 70 percent on a 
November of 2018 launch, and that is consistent with the 
budgets that we have submitted to Congress through the 
Administration. So that is a consistent plan.
    We have been trying to work to an earlier schedule and that 
is based on the risk mitigation for the extra funding we have 
received from Congress, so we have kind of kept both plans in 
place so we take the funds that we are--have been given by 
Congress and use those in an effective manner in trying to hold 
the earliest launch date that we can potentially hold moving 
forward. We need to be aware of the concerns that GAO brought 
up and make sure that we don't overly pressure that schedule 
and try to work too fast and do things that end up in--wasting 
the funds or wasting of resources.
    So our current planning we were holding December of 2017. I 
would say we have now moved off of that date. We will be 
somewhere in the 2018 time frame now with our current planning 
and that is just based on the reality of problems that have 
come along in the program and some uncertainty in funding. So 
we will move a little bit into--probably with our planning 
dates into I would say maybe June kind of time frame of 2018, 
and that is still ahead of our commitment consistent with the 
budget level in 20--of November of 2018 that is consistent with 
the President's budget request.
    So I would say we are managing it in this kind of 
interesting environment where we get different funding levels. 
The teams are making tremendous technical progress. SLS is 
entering into probably one of the more critical phases where 
they actually go in to manufacture of hardware and we will see 
how that goes over the next couple of months here in January, 
February, and March. But again, I think we have been able to 
balance the budget needs that we have overall to try to deliver 
a program as effectively as we can for the Nation and for the 
Congress.
    Chairman Palazzo. Ms. Chaplain, GAO has noted in the past 
that the SLS and Orion programs do not have integrated 
schedules for development and launch. How is NASA currently 
managing the schedules for these two programs so that they will 
launch not just on time but at the same time?
    Ms. Chaplain. At present there are still different dates in 
the final launches and Orion is a TBD you could say right now 
because they are about to go into the process where they look 
at their resources, their schedules, and they set a launch 
date. At this time it does not look like they could make 2017 
and 2018 is even a challenge in and of itself. So we look 
forward to seeing what that date really is and then how do the 
dates of the other programs align. It is important to plan to a 
single date as early as you can so you can align tasks 
appropriately to meet that date. You don't unnecessarily expend 
resources trying to meet dates that other people or other 
systems can't meet. So we will have to see what happens after 
this next KDP-C cycle for Orion and see how the dates shake 
out.
    Chairman Palazzo. I now recognize Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And again thank you 
for the testimony.
    Mr. Gerstenmaier, We have all recognized that resources for 
Orion/SLS programs have been constrained and I think we can 
acknowledge as well that flat budgets are not optimum for 
carrying out major development programs like Orion and SLS, but 
I am impressed with how much progress has been made on these 
programs given these constraints. And as you know, the 
Committee has had the goal of having SLS and Orion operational 
at the earliest possible date. You indicated that--you have 
also indicated the slippage based on the budget constraints.
    We are going to be authorizing NASA again--well, 
reauthorizing next year, so I want to understand what the 
additional progress could be made on the SLS and Orion programs 
if we were to authorize additional resources and whether or not 
the impact on the exploration program--whether there would be 
any impact if there were inflationary increases, as recommended 
by the National Academies' report of a five percent increase, 
say.
    And would a sustained increase of this kind of magnitude be 
sufficient to accelerate the progress that you describe for 
projected launch dates for EM-1 and 2, or would it only be 
enough to reduce the risk of those dates being pushed even 
further to the right? I guess I am just trying to figure out 
what would get us back to a 2017 target. You seem to have 
indicated that it is not just resources but even Ms. Chaplain 
acknowledges that the 2018 dates are at risk as well because of 
the uncertainty around budget constraints.
    Mr. Gerstenmaier. Okay. And I think one thing that could be 
very helpful to us is to get some stability in understanding 
what the budget is. It is difficult for the programs to plan 
for potentially what could be a Congressional budget versus the 
Administration budget. To get some agreement between the 
Administration and Congress so we know what to plan for in 
terms of budget would be helpful to us overall, as well as the 
absolute level.
    In terms of the technical work, again, I think we have 
really probably moved off of December 2017 when I look at the 
work so I don't think funding will pull us back to that date. I 
also respectfully have a difference of opinion with GAO. I 
think it is perfectly fine to complete one of these programs 
ahead of the others. They don't need to all sync up at exactly 
the same time. If you think about when you take a vehicle to 
launch down at the Kennedy Space Center, typically the rocket 
is ready to go well before the payload is; then the payload 
comes later. And I think it is actually to our advantage to 
have some difference in schedules between those. So I think SLS 
coming first, having the ground systems ready in Florida, and 
then Orion showing up at the third-place is perfectly fine. It 
is not going to waste resources on--if EM-1 is complete, if SLS 
is ready to go fly, we will beginning to work on the next core 
for the second flight of SLS so that workforce will transition 
immediately from the EM-1 activity to EM-2, so there is not a 
need to have all these programs synced up. So I think we needed 
to be careful and think about that. If we put that extra 
constraint in where I have to sync all these programs up and 
match all these schedules, I think that puts another burden and 
that can make an inefficiency.
    So again, I think again from a technical standpoint we are 
probably in 2018 somewhere with SLS and the first part with the 
funding levels we have seen. We have made the commitment in the 
KDP-C activity to November of 2018, ground ops is in June 2018 
with our commitment, and we are in the process of doing the 
Orion evaluation now to pick a date for Orion.
    Ms. Edwards. Thank you. And, some have criticized the SLS 
and Orion program as kind of a rocket and spacecraft without a 
mission. We have set a long-term goal of a House-passed NASA 
Authorization Act of 2014 of sending humans to Mars and we need 
a roadmap from NASA of the best way to get there, and it seems 
to me that now is the time for that. What role do you see SLS 
and Orion have in reaching that goal and when will we have a 
strategy for getting there?
    Mr. Gerstenmaier. I think both SLS and Orion play a key 
role in that strategy you described. SLS is the heavy lift 
launch vehicle. It is the--we need that kind of ability to 
launch that much mass to go do a Mars class mission. Orion will 
have to return at velocity similar to what you saw in the 
flight test, actually higher from at least lunar return 
velocities, which most capsules have not. So those two 
components are really critical to our Mars strategy.
    There are others that need to be added, a habitation 
module, and we are actually using the space station today to 
buy down risk on the human performance and how well systems 
work. So I think it was talked about, the life support system 
of Orion; it is actually being tested on space station today so 
we are actually getting a chance to see how the Amine Swingbed 
operations work onboard space stations. So we can use all these 
pieces to continue to advance us towards Mars but I don't think 
there is any question that these two pieces fit squarely in any 
plan for Mars activity.
    Ms. Edwards. So we should just set aside that criticism, 
right?
    Mr. Gerstenmaier. Yes.
    Ms. Edwards. Thank you.
    Chairman Palazzo. I now recognize Mr. Bridenstine from 
Oklahoma.
    Mr. Bridenstine. Thank you, Mr. Chairman, and thank you for 
your leadership on this very important committee. Thank you to 
our witnesses for providing testimony today. It is an honor to 
be with you and certainly to hear your testimony.
    Gene Cernan was the last man to walk on the moon. He took 
off the moon December 17th, 1972, three years before I was 
born. He was a naval aviator, a naval officer. He was an 
aeronautical engineer, an electrical engineer, a fighter pilot, 
a test pilot, and an astronaut. He and so many others that 
accomplished that pinnacle feat never went back to the moon, 
and I think that is a tragedy and certainly something that this 
committee needs to be aware of. It hasn't happened in my 
lifetime. My parents remember exactly where they were the first 
time it happened with Neil Armstrong and Buzz Aldrin.
    This committee, before I got here, and certainly Congress 
as a whole, commissioned a report that cost $3.2 million. They 
spent 18 months. It was a group of individuals led by Governor 
Mitch Daniels and they came up with a report that is called 
``Pathways to Exploration.'' And one thing that I thought was 
telling in this report is they talk about a horizon goal. What 
is the horizon goal for NASA? And their horizon goal, according 
to them, NASA's horizon goal ought to be Mars. And of course 
there are steppingstones, pathways to get to land a human on 
Mars and to bring humans home from Mars. And interestingly, he 
says, ``The current program to develop launch vehicles for 
spacecraft for flight beyond LEO cannot provide the flight 
frequency required to maintain competence and safety.'' I am 
going to read that again: ``cannot provide the flight frequency 
required to maintain competence and safety.''
    I took a trip down to Houston, I visited the Johnson Space 
Center, I talked to them about SLS. Of course everybody was 
looking forward to the first launch. It was going to be 
December of 2017; now we are hearing 2018. But what was 
interesting is what the follow-on launch after that was going 
to be. It was going to be a human launch that was going to be 
in 2021, and my initial reaction as a Navy pilot--remember, 
Gene Cernan and these guys inspired a guy like me. Even though 
I hadn't been born yet, I read about these folks. They became 
heroes of mine and inspired a guy like me to join the United 
States Navy to become a pilot. It was aspirational. This is the 
kind of benefit that this has to the United States of America.
    And they said 2017 would be the first launch, 2018 could be 
what it slips to, and then ultimately we are going to launch 
man--a manned Orion mission in 2021. Now, it would appear that 
would have to slip as well. But my initial reaction was we are 
going to go four years without a launch and then we are going 
to put men in the vehicle and women in the vehicle and send 
them into space.
    My question for you, Mr. Gerstenmaier--sorry, my name is 
Bridenstine so I live with the same problem--my question for 
you is do you agree with this assessment that the current 
program to develop launch vehicles and spacecraft for flight 
beyond LEO cannot provide the flight frequency required to 
maintain competence and safety? Do you agree with that?
    Mr. Gerstenmaier. We are looking very closely at those 
concerns. I am not--first of all, I would say that the fact 
that EM-1 has moved into '18 doesn't mean that EM-2 has moved 
also. We will continue to look at ways of holding that. We are 
trying to look at building a system that we can fly repeatedly 
and fly for reasonable cost and we still owe answers to GAO on 
those activities.
    Our goal is, once we fly a crew in '21, we would like to 
fly roughly a flight rate of about once per year, and we are 
off analyzing that once-per-year flight rate to see if we can 
achieve that within our budgets and we think if that--does that 
provide enough frequency of flight that it answers those safety 
concerns, and we are off analyzing both of those activities 
right now. So our intent would be to take this period between 
the first un-crewed flight of Orion to deep space on the SLS 
and then the second flight with crew and then follow that with 
roughly one flight per year after that.
    Mr. Bridenstine. Do you agree that the horizon goal of the 
United States ought to be landing humans on Mars?
    Mr. Gerstenmaier. Yes. And the way we see it at NASA is we 
see three phases. There is what we call the Earth-reliant 
region, which is a station which we use today to test out 
systems like I described. We also understand how the human body 
performs in microgravity. We will do a one-year expedition next 
year with crew members to see that the human can tolerate the 
kind of duration in microgravity to go to Mars.
    Then we see the next region of space, the proving-ground 
region of space that is around the moon. That is where we are 
now days away from return, we can test the systems, look at 
orbital mechanics, we can see deep space radiation, we can do 
rendezvous without communications to the ground, we can verify 
and validate the concepts that will be needed to take us 
eventually to Mars.
    Then the last phase is Earth-independent or the Mars-ready 
phase, and that is this horizon goal you described. But we 
think we have at a macro level an orderly process beginning in 
low Earth orbit going to cislunar space and then eventually 
moving on to the Mars class mission.
    Mr. Bridenstine. And, Mr. Chairman, if you will entertain 
me for just a few seconds here, I would like to ask one last 
question, which is the report here that we commissioned, $3.2 
million, 18 months, a lot of experts, they indicate that given 
our flat funding for the human spaceflight directorate that we 
are not going to accomplish that mission of getting to the 
Mars. Given where we are with flat funding, do you agree with 
that assessment?
    Mr. Gerstenmaier. We are going to need some funding level 
above flat funding.
    Mr. Bridenstine. Would you be willing to come back and 
provide us what kind of funding level is necessary in order to 
accomplish the objective?
    Mr. Gerstenmaier. We could--we can provide that and we can 
take that for the record and describe that to you. Again, it is 
going to be a function of the time frame and the time frame is 
driven not only by the funding requirement but it is also by 
have we gained enough experience in cislunar space, have we 
bought down enough technical risk, have we--are we ready to 
take that next step? So there are several components. It is 
more than just a budget discussion; there is also the technical 
speed and the assurance of what we can learn during this period 
moving forward.
    Mr. Bridenstine. And that obviously would require more 
flight frequency than what we are currently getting?
    Mr. Gerstenmaier. Potentially, yes.
    Chairman Palazzo. The gentleman's time is expired. We may 
have a second round of questions----
    Mr. Bridenstine. Thank you, sir.
    Chairman Palazzo. --if the Member would like to--at this 
time I recognize Ms. Bonamici for five minutes or six or seven.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And thank you so much to the witnesses for being here 
today. It is really a pretty exciting time for the U.S. space 
program. I know that my colleagues and I all watched the Orion 
test launch with great interest.
    And I want to also join my colleagues to congratulate NASA, 
Lockheed Martin, United Launch Alliance, and everyone who 
participated in this test flight. I heard from some of my 
constituents who really applauded this, saw this as a big step 
in our leadership in space, and that comes as welcome news as 
we are trying to inspire and spark interest in the next 
generation of young scientists.
    In our previous Space Subcommittee hearings, we have talked 
about the challenge of communicating the importance of NASA's 
work and mission to our constituency who support the mission 
with their hard-earned tax dollars. And as Mr. Bridenstine was 
saying, we have a lot of people who are inspired looking back 
to the Apollo missions and the Moon landing, but that public 
outreach is really important. And I noticed that you gave us a 
publication here that has--``It Takes a Country'' that talks 
about all the places across the country where the parts and 
pieces were supplied and purchased and that shows a broad range 
of States and businesses I am sure that participated in that. 
That kind of thing is important to convince our constituents of 
the importance economically as well.
    I want to make sure Mr. Bridenstine saw the Congressmen On 
Board picture in this publication, too. We have some of our 
Congressmen pictured in there.
    Also, I know that the budget challenges and the lack of 
certainty is very, very important and, Mr. Gerstenmaier, you 
talked about that need for stability and it is certainly 
something that we talk about here on a regular basis, that that 
certainty in decision-making is--and long-term thinking--is so 
important, especially more so for NASA than perhaps many of the 
other decisions that we make here. And also we know about the 
importance of safety. Acknowledging, as we all know, that space 
exploration involves risk, there are safety concerns and I know 
that NASA does a lot to address those.
    So, Mr. Gerstenmaier, some have said that outfitting the 
Orion with the necessary life support equipment on the first 
crewed mission will cause the spacecraft to be overweight, so 
should we be concerned about that? What options does NASA have 
to mitigate this possibility?
    Mr. Gerstenmaier. And we--in the flight test we just flew, 
the next flight of Orion will be significantly lighter. We have 
done a major redesign of some of the structures to actually 
lower the weight of Orion and that wasn't easy to make those 
changes but they have done that. We have also--are starting, as 
I described earlier, testing some of the life support systems 
on board space station so we will know how much they will 
actually weigh and some of those systems are in place.
    So I think we have a sound approach to address the concerns 
that you raised. We know what it will take to add the life 
support system and we will make sure that it can be added and 
still not exceed the mission weight.
    Ms. Bonamici. Thank you. And then also, Mr. Gerstenmaier, I 
want to follow up on your response to Ms. Edwards' question. 
You know, we tend to focus on the SLS and Orion when we think 
of the exploration program, but I want to talk a little bit 
more about the ground infrastructure at the Space Center, which 
is also undergoing some significant development to support the 
SLS and Orion launches. I know there has been work on the 
mobile launcher, the tower, the vehicle assembly building, the 
Launch Pad 39B underway, so where does that ground 
infrastructure work stand relative to the progress being made 
on SLS and Orion? Are they in sync so that they will be ready 
at the same time?
    Mr. Gerstenmaier. Again, I think you saw in the video a lot 
of activity that is going on down in Florida. That work is in 
progress and we completed the KDP-C review for ground systems 
and it shows a 70 percent confidence level for that equipment 
to be ready in Florida to support a launch in June of 2018, so 
it is on schedule to move forward.
    It has challenges that need to be worked as well, and again 
I would stress I don't see that all these activities have to 
line up. Even if SLS is ready a little bit early and the ground 
system isn't fully there, it is still the right thing to do to 
move the rocket down to Florida and begin checking out 
umbilical interfaces to see how it is going to fit within the 
launch tower, to see how it will fit within the launch pad. 
That still fits from an overall schedule standpoint so there is 
not a disconnect in this schedule. Even though they don't--
everything doesn't arrive at precisely the same time, it is 
perfectly appropriate to have one component arrive before.
    Ms. Bonamici. Thank you. And I am going to squeeze one more 
question in here.
    As demonstrated by the House-passed NASA Authorization of 
2014, there is a strong sentiment for NASA to have a policy on 
termination liability that really maximizes the use of 
appropriated funds to make progress in meeting those 
established technical goals and schedule milestones. How is 
NASA currently handling potential termination liability for SLS 
and Orion?
    Mr. Gerstenmaier. It is actually not a NASA policy. We 
believe it is part of the Anti-Defamation Act where the 
termination liability is required by all agencies to be handled 
in a similar manner to which the agency does. So, you know, 
that is where we are. So it is not unique to NASA and unique to 
what we have done in the past.
    Ms. Bonamici. Thank you very much and I am--yield back. 
Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Rohrabacher from 
California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing. It is vitally important 
that we have a responsible oversight of the various NASA 
projects that are the responsibility of this Subcommittee. Many 
of us were very skeptical about this SLS commitment when it was 
made. We said there would be funding problems; I had no idea 
the funding problems would come on so quickly. And, sir, you 
noted that you said the funding levels now are interesting. 
Interesting? They are not interesting; they are insufficient, 
insufficient to reach your goals. And why are they 
insufficient? Because we didn't have enough money for this 
project to begin with.
    Am I correct in assuming that there are large commitments 
of finances that will be necessary to develop other 
technologies that are yet to be developed for this spacecraft, 
for the SLS to move forward on its mission to Mars? We don't 
even know if those expensive technology development projects 
will succeed. To say we have got the cart before the horse is 
an understatement. And there is an expense to that and I hope 
my colleagues on this Subcommittee understand that with a $10 
billion--and that is a minimum expenditure that we are talking 
about here in developing this monstrous rocket project that 
won't have a real mission until we are ready to go to Mars, 
which could be two decades or three decades from now depending 
on if we can actually ever get over the technological hurdles 
that we haven't gotten over yet, that by doing that we have 
committed ourselves not to do a bunch of other things, not to 
identify all the near-Earth objects that could be hitting the 
Earth and murdering millions of people from some object hitting 
the Earth, much less setting up a system for how we can deflect 
a near-Earth object.
    We are not going to have that because we are going to have 
a big, huge rocket that we can be so proud of that won't even 
have a mission for two decades. We are not going to be building 
ways to deflect those rockets. We are not going to be building 
a way and a technology developing a way, Mr. Chairman, to clear 
space debris. Space debris is going to end up strangling 
humankind's involvement in space in order to improve the 
condition of human beings, which is a good investment to make, 
not an investment in a huge rocket that doesn't have a mission 
for 20 years.
    And we basically have canceled--just even recently we have 
canceled this solar cell project. We are not going to have a 
refueling system in space that could incredibly increase our 
abilities to do things in space, and basically we could be 
perfecting our ways of repairing satellites. All of these 
things are going to be defunded because we are spending 
billions of dollars on a rocket that may not fly to Mars two 
decades from now.
    This is--I was going to say to say this is the cart before 
the horse is an understatement that I have ever heard and we 
are already having budget crisis talks about it right now 
because what you are telling us today is that things aren't 
going to work out with the budget that we have got. It is not 
just interesting; it is insufficient to achieve the goal. And 
even if we do then pump more money into the SLS project, we 
have pumped it into a project that is providing a rocket that 
will be useless to us for two decades as compared to all those 
other things that can be done in space.
    Mr. Chairman, we need to be serious; we need to be 
responsible. We should not be blaming the people at NASA and 
our professionals and the executive branch. We made a wrong 
decision when we went down this road and I think that 
unfortunately the American people and the people of the world 
are going to pay for it not just out of their pockets with 
money but out of things that we could of been doing in space 
that would have been so beneficial to the human race.
    With that, and I guess you have got 30 seconds to answer 
that, but go right ahead. Is there any refutation you have of 
that observation? Please feel free. My feelings won't be hurt.
    Mr. Gerstenmaier. My only comments would be we don't have 
very--we have--I can't think of any real major technical 
challenges in terms of SLS development.
    Mr. Rohrabacher. How about the radiation challenge with 
going to Mars?
    Mr. Gerstenmaier. That is----
    Mr. Rohrabacher. Have we met that?
    Mr. Gerstenmaier. We have not met that----
    Mr. Rohrabacher. Yeah, we have got a whole bunch of those 
type. I am not talking about the challenges of developing the 
SLS; I am talking about the challenges of once we have it and 
we have spent those billions of dollars whether it is going to 
be able to go to a mission which it is supposedly for. We don't 
even know how we are going to land on one of those moons on 
Mars yet, do we? We don't have the exact systems set up and how 
much that is going to cost us to develop it and how it is going 
to be put on the rocket. We have a list of these technological 
achievements that are necessary for this rocket to have been 
useful in any way and we are not even halfway there. Please 
feel free.
    Mr. Gerstenmaier. And then the only other thing I would add 
is we are doing some activities in the area as you described. 
On board space station we have a refueling demonstration----
    Mr. Rohrabacher. Um-hum.
    Mr. Gerstenmaier. --package on the board outside of space 
station where we have actually robotically serviced the outside 
of a satellite----
    Mr. Rohrabacher. Right.
    Mr. Gerstenmaier. --and we have transferred some propellant 
back and forth.
    Mr. Rohrabacher. Right.
    Mr. Gerstenmaier. We are also looking at cryogenic 
servicing on station.
    Mr. Rohrabacher. Right.
    Mr. Gerstenmaier. There is a package on board station----
    Mr. Rohrabacher. Those are the good things. Okay.
    Mr. Gerstenmaier. And then we also have solar electric 
propulsion and--as part of the Asteroid Redirect Mission and we 
are also looking at techniques where we can use a gravity 
tractor----
    Mr. Rohrabacher. So----
    Mr. Gerstenmaier. --to deflect some asteroids. So we are--
--
    Mr. Rohrabacher. They are wonderful but let me just note 
all of those projects were financed in budgets before the SLS 
became part of our budget. All of those things that you said we 
now are testing, they were done in the research and development 
stage long before we started taking all of our money out to put 
it in one big rocket. And we don't even know, do we, whether we 
are going to have the money to finish all those projects that 
you just talked about in their development because this is how 
at $10 billion, and by all of the experience we have had, it is 
likely to go up to double that by the time we finish with this 
rocket. And I say finish, that is just when the rocket is ready 
to take off for the first time.
    This was a rotten decision on the part of this committee. 
It is not your fault. You are good soldiers and you are doing 
your very best with what the Members of Congress are giving 
you. We have given you an undoable task and thank you very much 
for your hard work.
    Chairman Palazzo. I now recognize Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman. I am glad that didn't 
stop Apollo.
    We are all excited about the Orion launch, Mr. 
Gerstenmaier, and I think we are seeing more public awareness 
of SLS now and that is something we all look forward to. Can 
you take a moment, following up on Congresswoman Bonamici's 
comments, to discuss the importance of another special aspect 
of the SLS program and that is the exploration ground systems. 
I am sure many folks are not up to speed on the importance of 
the ground systems aspects of the SLS.
    Mr. Gerstenmaier. Yeah, the ground systems team plays a 
critical role in the Space Launch System. They are working on 
the mobile launch platform to interface with the rocket to 
provide propellant to that to fuel the rocket and they will 
actually launch off it. They are also working on a launch pad; 
a significant amount of work has gone into the pad.
    We have looked forward to trying to lower our operations 
costs so there are many activities on the launch pad. It is a 
clean pad which should help lower launch costs. We also have 
the firing room down at the Kennedy Space Center. That is going 
in place with a lot of software development activities there. 
We have also made the launch pad a multipurpose launch pad so 
it can not only support SLS but it can support other rockets so 
the fiber cables that run out to that launch pad can support 
multiple rockets launching off of that pad, which is a good 
thing. So there is a tremendous amount of work going on at the 
Kennedy Space Center.
    The recovery activities that occurred for the EFT-1 flight, 
those were all managed at the Kennedy Space Flight Center by 
the ground systems folks that worked with the Navy and the 
Anchorage to pick up the capsules. So again, the ground support 
activities, and as you saw in the video, are absolutely 
critical to what we are doing with the heavy lift launch 
vehicle and the Orion processing and manufacturing.
    Mr. Posey. Thank you. Following up little bit, can you 
explain the thinking behind the President's budget request 
calling for funding increases for exploration ground system in 
the years 2016 to 2019 and what happens if these funding 
targets are not met?
    Mr. Gerstenmaier. Again, we need the funding levels that we 
have requested to meet the schedules that we have put forward 
or there will be slippages in activities, as I have described.
    Mr. Posey. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman Palazzo. I now recognize Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    As you can discern from the comments of Representatives 
Donna Edwards and Dana Rohrabacher, the mission for SLS and 
Orion is a certainly a concern for this committee and for 
Congress as a whole. Mr. Gerstenmaier, it seems that you are 
uniquely situated as Associate Administrator for Human 
Exploration Operations to answer some of these questions about 
SLS's missions. It is one thing for us to test whether SLS and 
Orion components work; it is another thing to actually give SLS 
and Orion a substantive, a real mission such as going to the 
moon or Mars, capturing an asteroid, space station resupply if 
that is what is necessary, or whatever. In your opinion, what 
should SLS's first real mission be?
    Mr. Gerstenmaier. I think the SLS and Orion's first mission 
will be to this proving ground, this space that I described 
around the moon amid we call it cislunar space in the vicinity 
of the moon. That is a very necessary step for us to move 
forward as we push human presence into the solar system. So it 
is a place for us to hone skills, to understand techniques, to 
prepare, much as the early flights did in Mercury and Gemini to 
prepare for the Apollo activities. These flights around the 
moon will help us prepare to get ready to go do these Mars 
missions decades later. But the first flights will be to the 
vicinity of the moon. The rocket is capable of doing that. 
Orion is capable of doing that without any additions and we can 
learn the skills, bring our level of expertise up to where the 
risk is then appropriate to take bolder steps beyond the 
cislunar space.
    Mr. Brooks. For clarity, you are saying around the moon. 
Does that include landing on the moon or simply going around 
the moon?
    Mr. Gerstenmaier. We didn't--in our budget we don't have 
funding for landing on the moon; we just have in the vicinity 
of the moon. We use potentially the gravity of the moon to help 
with doing trajectory design as we would look for Mars. We have 
an international community that is very interested in 
potentially doing lunar activities and maybe we can partner 
with the international community if they choose to develop the 
lander. But in our concept we don't have funding in our plans 
for a lander to the moon.
    Mr. Brooks. Okay. After we go around the moon, what should 
be the second mission of SLS?
    Mr. Gerstenmaier. Again, I think it is going to take more 
than one mission around the moon it to build these skills that 
we need to----
    Mr. Brooks. Okay. After all the around-the-moon missions, 
what should be the second mission for SLS?
    Mr. Gerstenmaier. Then we are ready to start heading 
towards Mars, and whether we go to an asteroid as an 
intermediate destination or we go all the way to the vicinity 
of Mars and go to potentially a moon of Mars, those are things 
yet to be decided.
    Mr. Brooks. Can you please give me a timetable sequencing 
of what you believe is appropriate for NASA and SLS with 
respect to the missions you have just enumerated?
    Mr. Gerstenmaier. Again, we kind of think of them in broad 
terms so that the decade of the '20s to the '30s, that is this 
proving ground region that I described to you where we learn 
these capabilities between 2020 and 2030. But beyond 2030 we 
are ready to go do these other activities, to an asteroid 
potentially in its native orbit or potentially all the way to 
the moons of Mars or to Mars in that time frame.
    Mr. Brooks. So for clarity, for the next decade or two you 
are talking about circling the moon and then roughly two 
decades thereabouts in the 2030s you are talking about then we 
can think about going to Mars. Is that your testimony?
    Mr. Gerstenmaier. We need--it is not just circling the 
moon; we are actually doing activities around the moon with the 
intent that we are building the skills, understanding the 
hardware, understanding the techniques, understanding the 
environment that we are operating in that prepares us to go to 
distances as far as Mars with a reasonable risk assessment.
    Mr. Brooks. Is additional funding needed to speed up the 
mission platform that you have just expressed?
    Mr. Gerstenmaier. Additional funding can help with that 
activity.
    Mr. Brooks. How much additional funding would be required, 
by way of example, to speed up the Mars part of the mission 
scope to somewhere in the 2020s, around 2030?
    Mr. Gerstenmaier. Again, I think I would like to take that 
question for the record. It is more than just funding. It is 
not only funding but it is also how long it takes us to 
actually get proficient at these skills to go take that next 
step, and to give you a real answer I need to spend some time 
with our teams looking at how long we think those activities 
take and then back into the funding discussion that you have.
    Mr. Brooks. Well, I hope you can understand this 
Subcommittee's concerns when it took us less than a decade not 
only to go around the moon but to land on the moon under Apollo 
and with what I am hearing you testify to it is going to be 10 
to 20 years to just go around the moon, not actually land on 
the moon. So those kinds of timing issues are of concern.
    And, Mr. Chairman, if I could ask Ms. Chaplain a question, 
is that okay?
    Chairman Palazzo. That is okay.
    Mr. Brooks. Thank you.
    Chairman Palazzo. You may proceed.
    Mr. Brooks. At this past year's hearing on the President's 
Fiscal Year 2015 budget request for NASA, Administrator Bolden 
indicated that providing more funding for SLS would not be 
helpful for completing the first version of SLS by 2017. 
However, your testimony states that the ``top risk'' for 
meeting its deadline for EF-1 in December 2017 is insufficient 
funding. Would you please explain this discrepancy and would 
additional funding make meeting the 2017 test flight possible 
or at least more likely?
    Ms. Chaplain. So the cost risk we identified in our report 
comes from NASA's own documents and was also raised by their 
Standing Review Board so there was indeed a very high risk that 
there was not enough money to help meet the 2017 date.
    That said, as Mr. Gerstenmaier has already testified, just 
putting in money now won't help you get there any quicker. 
There are a lot of sequential activities that are needed to get 
some of the critical path items done for SLS like the core 
stage. The money at this point would be helping out with 
reserve and possibly doing testing and some other activities 
that couldn't be done earlier in bringing them forward.
    Mr. Brooks. Thank you, Mr. Chairman, and thank you, Mr. 
Gerstenmaier and Ms. Chaplain.
    Chairman Palazzo. I now recognize Mr. Schweikert.
    Mr. Schweikert. Thank you, Mr. Chairman.
    Part of this is going to be a little bit of a follow-up on 
both what Dana and Congressman Brooks were--Ms. Chaplain, help 
me get my head a bit--from your report and I am assuming much 
of the--woven into your report was actually taken from the 
documents from NASA and others, and then when we start to look 
at timelines, any--and this--I will let you do it as a personal 
opinion because you have been doing this for a while. How short 
are we financially? And then I will go to Mr. Gerstenmaier and 
ask how short we are technologically.
    But if I came to you and say, hey, here is the robustness 
of what we are trying to do, I am looking at, you know, a 
number of tables that have, you know, all these moving pieces 
and projects, and I came to you and said here is where we are 
over the next 20 years, here is what we are seeing Congress' 
appetite for funding, what is an honest number of shortfall?
    Ms. Chaplain. I think there are various numbers to pay 
attention to here. First are the kind of short-term numbers 
laid out in the documents for SLS and Orion. For SLS they 
ranged anywhere from 400 to 900 million, but with pushing out 
the date and doing some other things, those numbers have been 
reduced. There is still a funding risk for Orion that is 
considerably high----
    Mr. Schweikert. Well--and--but--and I am actually after 
something for the robustness of the system. Is that just Orion 
itself? Is that also ground control, personnel costs? I mean 
every step you need to make this work instead of just this 
individual silo, has that been actually looked at through the 
totality of the system that is required?
    Ms. Chaplain. Right. So the problem we identified in a 
different report on cost estimating is we don't really know the 
total number now of how much it is going to cost to do 
everything we are looking for them to do. And second, we don't 
know really what the pathway is and that pathway has a big 
effect on numbers. Like Mr. Gerstenmaier mentioned a landing 
system. It is very costly. There is not money to do it right 
now. If you want to move things up, you have to pay for a 
landing system. How much is that? So it is very, very important 
to kind of layout the roadmap now and see all the different 
pieces that you need. We don't know that and we don't have cost 
estimates beyond the first test for some of the systems.
    Mr. Schweikert. And, Ms. Chaplain, you understand sort of 
the--you know, when we are looking at CBO-type numbers, you 
know, we have here is our best guess, here is our optimistic, 
and here is when we are in trouble, I mean, sort of those 
variants. We understand for every step of technology, every 
additional incremental piece of timeout, the variance grows 
because it is unknown. But we are trying in a number of 
discussions to get some idea of what the exposure is and are we 
about to cannibalize everything else?
    Mr. Gerstenmaier, technologically if I came to you and said 
the goals that are here on the timeline over the next ten 
years, 20 years, where do we have things where we don't 
actually have the technology yet but we are working on it?
    Mr. Gerstenmaier. I would say the biggest technology areas 
that we need to work on are we need to work on radiation for 
the human being and look at radiation shielding. We can only 
shield so much and--but I think again that is a manageable 
risk, but will there ultimately be some risk associated with 
galactic cosmic radiation that we will have to deal with on 
humans.
    The other big thing is if we are going to Mars, the entry, 
descent, and landing into the Mars--to the surface of Mars is a 
big technology leap. Today, we have landed Rovers on the order 
of one metric ton on the surface of Mars. For our human class 
mission we are going to have to land about 20 times that, at 
least 20 metric tons. We don't know exactly how to do that. We 
did some tests off the--in Hawaii to go look at some inflatable 
reentry heat shields. We are working on that technology.
    And then kind of going back a little bit to the other 
questions about Mr. Brooks and why we are not sprinting to the 
moon like we did before, I am really building systems that are 
modern manufacturing, so the equipment we are putting in down 
at Stennis is going to allow us to have a system that can be 
reproduced and flown multiple times for minimum cost.
    Mr. Schweikert. Okay.
    Mr. Gerstenmaier. So we are spending extra time, I would 
say, to prepare a system that is affordable in the long-term. 
GAO wants more details on that. We need to provide that 
information to them. But we are looking forward that we are not 
just building a single system that sprints to a destination. We 
are building an infrastructure that allows us to have sustained 
presence beyond low Earth orbit.
    Mr. Schweikert. All right. Thank you.
    Mr. Chairman, as you have had a number of conversations 
with staff and the rest of us, we still think there is so much 
variability, exposure, and costs, and we all know what is about 
to hit us in the entitlement crisis over the next decade cost-
wise. What is going to happen to future Federal Government 
spending? Somewhere here we are going to have to have a much 
more robust and much more brutally honest--of what we have cash 
for and what we don't.
    With that I yield back.
    Chairman Palazzo. At this time we will go into our second 
round of questions.
    Mr. Gerstenmaier, when did NASA first begin tracking the 
$400 million risk identified by GAO?
    Mr. Gerstenmaier. Probably that got identified back in 
2013, 2014 time frame. I would say if you asked my teams now, 
they would say that that $400 million risk, because of the 
appropriations we have received in 2014 and the pending bill 
that we saw last night, that $400 million risk will be retired.
    Chairman Palazzo. Well, you said in 2013, we had 
Administrator Bolden sitting where you are telling us that if 
we threw another 300 million at SLS and Orion, we wouldn't even 
notice it. I mean it wasn't needed at that time so you 
recognized this risk. If we would have--if you would have come 
to us, say, a year ago or when you first started tracking it--
because it feels like we are just finding out about this risk, 
this 400 million since the GAO's report has come out. Has--and 
you are telling me NASA has known about this for a much longer 
period than that?
    Mr. Gerstenmaier. It was in their earlier reports that GAO 
picked up and it is one of many risks. We carry technical 
risks, programmatic risks, and budget risks. And it was again 
to meet a specific launch date and we--and again, we have moved 
the launch date, which gives us some margin as well and then we 
have also--we actually know what the budgets are now in 2014 
and we will know what the budget is when it gets approved here 
in '15. Those remove that uncertainty and that lowers the level 
of the risk. So as we identify those, we carry those and bring 
those forward as soon as we can.
    Chairman Palazzo. And are you going to be matching your 
expenditure of funds based on Congress' budget or the 
President's request, which has been quite lower than what 
Congress has been appropriating for the past several years?
    Mr. Gerstenmaier. This is the dilemma we have, right. So 
the reality is the program plans to some variance between those 
two limits that you just described.
    Chairman Palazzo. And if we--if you would have come to us 
for, say, additional funding a year or two years ago, would you 
have been able to mitigate the risk or buy down the technical 
risk or would we still be having this same conversation that 
the test is going to slip to the right regardless of the amount 
of funding we may have been able to appropriate to the program?
    Mr. Gerstenmaier. That is a very difficult question to 
answer. And the other thing that is hard for me is that I look 
at human spaceflight as the total, which is SLS/Orion, also 
commercial crew, commercial cargo, and International Space 
Station. I see human spaceflight as really the combination of 
all those activities. We are using space station today to buy 
down a lot of risk for Mars so I have to look at a balancing 
across all those programs. I can't optimally find any one of 
those programs so I effectively balance across those in the 
risk and I try to weigh the budget and the technical risk 
associated with those programs to give what we think is the 
best approach to deliver hardware for the lowest cost for the 
Congress and the taxpayers.
    Chairman Palazzo. I now recognize Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you again 
for a second round of questions.
    I want to go back to something that I raised earlier and it 
is regarding the recommendation by the National Academies about 
a five percent inflationary increase in the budget. And 
although I understand that for this specific purpose of looking 
at 2017 slippage to 2018, that that is not what we are talking 
about, but I want to know about the program and would it be 
useful for both the Administration to recommend and Congress to 
incorporate this margin that the National Academies has 
recommended so that we, over a period of time--that we are not 
looking at the questions that are being raised today? Just give 
us some guidance. Okay. Flip a coin. Yes, Ms. Chaplain.
    Ms. Chaplain. I would just add that is not the first time a 
recommendation like that has been made. It was made at the tail 
end of the Constellation program by the Augustine Commission 
and I think they recommended about three billion additional a 
year, which was pretty significant, and that was their view of 
what was needed over a number of different paths that you would 
take, not just the Constellation path. They mentioned a path 
similar to what is being done here.
    Ms. Edwards. And that would provide a lot more stability 
than what we are seeing now, wouldn't it?
    Ms. Chaplain. Yes, and the other thing to remember is 
programs like this have spikes in terms of their funding needs 
so Constellation program itself, when that recommendation was 
made, was asking for about $3 billion a year but in their 
budget they went up to as much as $7 billion a year in terms of 
their needs. So there are spikes depending on what you are 
developing and when activities come up.
    Ms. Edwards. I want to just ask really briefly in 
Department of Defense large-scale programs, they don't go 
through this. They say--they set out kind of a goal. It crosses 
Congresses. They know that there is a difference in these kind 
of large-scale development programs. Why is it that we are 
funding a scientific program that has a lot of uncertainties 
year by year and in some cases a few months by a few months? 
Don't we actually end up wasting way more money over the long 
term by doing that than just setting out a goal of making sure 
that we fund this program in the most robust way possible 
across Congresses so that the goal is achieved? Why aren't we--
why isn't there modeling for these large-scale science programs 
the same way that there is that kind of modeling for defense 
programs? And has GAO ever analyzed that and what the impact 
would be to the success of the programs?
    Ms. Chaplain. We have never analyzed NASA funding compared 
to DOD funding but we do know when the funding stretched out, 
the problems you are describing do occur. It is not like all 
the DOD systems don't experience some kind of instability. It 
is rare when Congress is trying to give more money than what 
they are asking for. Sometimes there is the reverse case where 
Congress gives a little less. But with programs with a lot of 
schedule pressure and everybody recognizes----
    Ms. Edwards. And experimentation?
    Ms. Chaplain. Yes, but programs where everybody recognizes 
a date is important to deliver, there tends to be more support 
funding-wise and it tends to be more stable.
    Ms. Edwards. Mr. Gerstenmaier, do you have a comment about 
that?
    Mr. Gerstenmaier. No, I think again the discussion is good. 
Some understanding and stability in budget would be helpful. At 
least matching inflation would be helpful.
    But again, I think the problem is we deal, as you describe 
very succinctly that--with essentially a year budget, sometimes 
months. You know, we throw in furloughs and other things just 
to make--and those are real impacts to us. When we had--we 
stood down effectively for two weeks where we couldn't do any 
work on Orion during that time and how you plan for that in a 
programmatic sense is extremely difficult.
    So it is a tribute to my teams to take this environment 
that is very dynamic and figure out a way to make as 
significant progress as we can, not waste funds, not use funds 
in an inappropriate manner, but it is difficult for the teams 
to do that but they have done a fairly good job, as we have 
seen through this activity. It could be eased if we got some 
more certainty.
    Ms. Edwards. Well, Mr. Chairman, I really--I am on a 
mission that we have to think differently about the way that we 
do these large-scale programs. We faced it with James Webb. We 
are looking at it here with SLS/Orion. This is just really not 
smart, and at the end of the day, the technologies expire, the 
technologies change over a period of 10 or 20 years as we are 
stretching things out, and then it is like starting all over 
again. And I just think it is about the dumbest way to do 
science.
    And with that I yield.
    Chairman Palazzo. Ms. Edwards, I think there are several 
people that would agree with you.
    I now recognize Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    And, Ms. Edwards, I do agree with you and your comments are 
certainly well recognized on both sides of the aisle so thank 
you for that. And we would like to work with you on how we can 
remedy this.
    I just had a quick question about the international 
implications of our direction for human spaceflight. The report 
that Ms. Edwards referenced from the National Academies 
indicated that if we were to do this Asteroid Redirect Mission, 
we would be not in alignment with the international community, 
most of which is focused on getting to the moon, namely the 
lunar surface and then on to Mars, and that this misalignment, 
according to the report, again headed by Governor Mitch 
Daniels, indicated that this misalignment could actually result 
in us spending a whole lot of money on dead-end technologies 
rather than actually accomplishing the objective of getting to 
the moon. Mr. Gerstenmaier, could you address that?
    Mr. Gerstenmaier. I would say the global exploration 
roadmap is the plan that the international partner community 
has agreed to, along with NASA, as the basic framework of how 
we want to head forward. I think in that roadmap Mars is a 
horizon destination, as we have described. The internationals, 
as the report describes, have a stronger interest in the moon. 
The Asteroid Redirect Mission places this asteroid in the 
vicinity of the moon, which is consistent with what the 
international partners would want to do. The SLS rocket, the 
Orion capsule, they fit very well in this lunar activity, in 
this proving ground I described, that the partners then have a 
desire to do lunar activities. We could very easily work with 
the partners and support that activity.
    The Asteroid Redirect Mission also fits into the long-term 
goal of what we want to do. We believe for a Mars class mission 
we need solar electric propulsion to move large masses to the 
vicinity of Mars. We are going to move essentially a 50 metric 
ton asteroid through space. That could be the same cargo we are 
delivering to Mars so that space tug that we are building for 
the Asteroid Redirect Mission is a piece of the tug that would 
be used for the human class missions to Mars so it fits in that 
other architecture moving forward.
    So it is not a diversion, it is not--from our overall goal. 
So we look at each piece we are developing within human 
spaceflight. We look how it fits in terms of international 
partner needs, we look how it fits in our horizon goal of Mars 
needs, and we only move projects that we can continue to keep 
moving forward in that direction. We don't want to spend 
resources on items that are one-of-a-kind use----
    Mr. Bridenstine. Do you know----
    Mr. Gerstenmaier. --much as the report said.
    Mr. Bridenstine. Do you know offhand specifically which 
technologies they are talking about that would be dead-end 
technologies as we pursue this path?
    Mr. Gerstenmaier. I think we didn't have a chance to 
discuss with the Committees significantly how we were going to 
use this cargo capability for Mars. I think if we would have 
had a chance to describe that with them, they would not have 
seen that as a dead-end capability. And so we--I think we 
needed to have more dialogue with the Committee. We ran out of 
time towards the end. They didn't get a chance to see some of 
our latest thinking of how all these pieces fit together 
towards the ultimate Mars horizon goal.
    Mr. Bridenstine. Okay.
    Mr. Gerstenmaier. But I can't judge what their answer would 
have been.
    Mr. Bridenstine. Last question--we are down to about a 
minute-and-a-half--we noticed that the WARN Act--notices went 
out for the WARN Act recently associated with the SLS program. 
Can you explain why, given the fact that we are spending more 
money than expected and everybody seemed to be telling us that 
things were ahead of schedule and we are spending more than 
what was anticipated, why did these WARN Act notices go out?
    Mr. Gerstenmaier. One reason for the WARN Act was there 
is--again, they are issued by the contractors based on the 
activity and the direction we give them. There is a natural 
change in the development lifecycle of the SLS. We are 
essentially ramping down on the heavy design phase where there 
is a lot of engineering, a lot of drawing development, analysis 
kind of activities that now is terminating naturally.
    Now we are getting ready to go manufacture so they are 
going to be buying long-lead items, large aluminum forgings. 
The work occurs down at the Michoud facility down off--by New 
Orleans to actually do manufacturing, so we are shifting from 
design to manufacturing, and during that shift, there is a 
natural ramp-down of the skills that the overall workforce will 
come up but it will come up in other areas and it will show up 
in materials. It will not show up in personnel. So this is a 
piece of that. Warren Act activity is supporting this natural 
progression from design to manufacturing.
    Mr. Bridenstine. Roger that. Mr. Chairman, I yield back.
    Chairman Palazzo. Thank you, Mr. Bridenstine.
    Two stories below us is the House Armed Services Committee 
room and Mr. Bridenstine and I also serve on that same 
committee, and we have had testimony presented to us that the 
number one threat to America's national security is our 
national debt, and I am going to have to say that the number 
one threat to America maintaining its leadership in space is 
also going to be our national debt, and many Members on both 
sides of the aisle recognize that we have to address the 
pending fiscal problem that is going to be facing our Nation 
and hopefully we can overcome that.
    Once again, Mr. Gerstenmaier, congratulations to you and 
your entire team at NASA, to Lockheed Martin and ULA for a very 
successful outstanding test flight.
    And I want to thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Committee may have additional questions for you and we will 
ask you to respond to those in writing. The record will remain 
open for two weeks for additional comments and written 
questions from Members.
    The witnesses are excused and this hearing is adjourned. 
Thank you.
    [Whereupon, at 10:30 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


                   Answers to Post-Hearing Questions
Responses by Mr. Bill Gerstenmaier
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Responses by Ms. Cristina Chaplain

                              Appendix II

                              ----------                              


                   Additional Material for the Record

                 Prepared Statement of Full Committeee
                  Ranking Member Eddie Bernice Johnson

    Good morning. I'd like to join my colleagues in welcoming our 
witnesses to today's hearing. We have much to discuss, so I will be 
brief in my opening remarks.
    Last week, NASA achieved an important milestone with the successful 
EFT-1 flight test of the Orion crew capsule, and I want to congratulate 
you, Mr. Gerstenmaier, and the entire NASA and contractor team on a 
very impressive achievement.
    I look forward to hearing more about EFT-1 and the significance of 
what you are learning from it. Equally importantly, I want to hear what 
lies ahead for the nation's human exploration program, because EFT-1 
demonstrates that NASA's exploration program is no longer simply 
something NASA would like to do-it's now a reality, with hardware being 
built, facilities being prepared, and vehicles being tested.
    Yet there is much more that will need to be done to achieve the 
long-term goal of landing humans on Mars. As we prepare for the 114th 
Congress, I think we need to heed the words of the distinguished 
National Academies panel that testified before us earlier this year. At 
that hearing, former Governor of Indiana and co-chair of the panel, Mr. 
Mitch Daniels, stated the panel's consensus view that the goal of 
sending humans to Mars ``justifies the cost, risk, and opportunities'' 
of doing so.
    However, Mr. Daniels also made clear that the panel believed that 
``any pathway that could successfully land humans on the surface of 
Mars would require funding above constant dollars.'' That is pretty 
clear guidance. And yet, to date we have asked NASA to achieve its 
exploration goals on a budget that doesn'teven keep pace with 
inflation. We in Congress have the ability to correct that deficiency 
if we have the will to do so. I want to work with my colleagues on both 
sides of the aisle in the next Congress to provide the funding that 
NASA will need to carry out a robust human exploration program as well 
as its other important tasks in science, aeronautics, and technology 
development.
    It is our choice as to whether we will do so, and I hope we will 
choose wisely. As I said after last week's successful EFT-1 mission, 
EFT-1 demonstrates that America's best days in space exploration still 
lie ahead of us. NASA and its contractor team are working hard to 
achieve challenging goals-we in Congress need to do the same.
    Thank you, and I yield back.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
